January 18, 2013

TO:            Daryl Kade
               Director
               Office of Financial Resources
               Substance Abuse and Mental Health Services Administration


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: Substance Abuse and Mental Health Services
               Administration Fiscal Year 2012 Performance Summary Report for National
               Drug Control Activities and Accompanying Required Assertions
               (A-03-13-00352)


This report provides the results of our attestation review of the Substance Abuse and Mental
Health Services Administration (SAMHSA) Performance Summary Report for National Drug
Control Activities and accompanying required assertions for fiscal year (FY) 2012.

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP) an annual evaluation of the progress by the agency with
respect to drug control program goals using the performance measures established for that
agency (21 U.S.C. § 1703(b)(13)). The Federal statute authorizes ONDCP to “monitor
implementation of the National Drug Control Program, including – (A) conducting program and
performance audits and evaluations.” ONDCP may request “assistance from the Inspector
General of the relevant agency in such audits and evaluations” (section 1703(d)(7)). Section 7 of
the ONDCP Circular entitled Drug Control Accounting, dated May 1, 2007, provides the
reporting requirements to comply with section 1703(b)(13). Section 8 of the ONDCP Circular
requires that each report defined in section 7 must be provided to the Office of Inspector General
to express a conclusion about the reliability of each assertion made in each Performance
Summary Report for National Drug Control Activities.

As authorized by section 1703(d)(7) of the Federal statute, and in compliance with the Circular,
ONDCP requested that we perform this review. Accordingly, we reviewed the attached
SAMHSA report entitled “FY 2012 Performance Summary Report for National Drug Control
Activities” and accompanying required assertions, dated November 30, 2012. We conducted our
attestation review in accordance with attestation standards established by the American Institute
of Certified Public Accountants and the standards applicable to attestation engagements
contained in Government Auditing Standards issued by the Comptroller General of the United
Page 2 – Daryl Kade

States. A review is substantially less in scope than an examination, the objective of which is to
express an opinion on management’s assertions contained in its report; accordingly, we do not
express such an opinion.

SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION
PERFORMANCE SUMMARY REPORT

SAMHSA’s report included assertions for four measures for National Drug Control Program
activities. The four measures were (1) percent of clients reporting no drug use in the past month
at discharge, (2) percent of States showing an increase in State-level estimates of survey
respondents (aged 12–17) who rate the risk of substance abuse as moderate or greater,
(3) percent of adults receiving services who had no involvement with the criminal justice system
(no past-month arrests), and (4) percent of program participants (aged 18 and up) who rate the
risk of substance abuse as moderate or great.

In accordance with ONDCP requirements, SAMHSA made the following assertions:

   •   SAMHSA’s performance reporting system was sufficient;

   •   SAMHSA’s explanations for not meeting performance targets, and plans and
       recommendations for meeting targets, were reasonable;

   •   SAMHSA’s methodology to establish performance targets was reasonable; and

   •   performance measures exist for all significant drug control activities.

We performed review procedures on the performance summary report and accompanying
required assertions. In general, we limited our review procedures to inquiries and analytical
procedures appropriate for our attestation review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that SAMHSA’s
performance summary report for FY 2012 and management’s assertions accompanying its report
were not fairly stated, in all material respects, based on the ONDCP Circular.

                                            ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and SAMHSA and is not intended to be,
and should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00352 in all correspondence.

Attachment
ATTACHMENT
                                                                                              ATTACHMENT
 ~ S,bst"", Ab"e and Mento' Health Se",'"" Adm'n;s"al;on
                                                                                              Page 1 of 7



~5J!Mlt~

       www.samhsa.gov. 1-877-SAMHSA-7 (1-877-726-4727)




        MEMORANDUM TO: 	                       Director
                                               Office of National Drug Control Policy

        THROUGH: 	                             Norris Cochran
                                               Deputy Assistant Secretary, Budget

        FROM: 	                                Director, Office of Management, Analysis and Coordination
                                               Substance Abuse and Mental Health Services Administration

        SUBJECT: 	                             Assertions Concerning Performance Summary Report


       In accordance with the requirements of the Office of National Drug Control Policy circular
       "Drug Control Accounting," I make the following assertions regarding the attached Performance
       Summary Report for National Drug Control Activities:

       Performance Reporting System

       I assert that SAMHSA has a system to capture performance information accurately and that this
       system was properly applied to generate the performance data presented in the attached report.

       Explanations for Not Meeting Performance Targets

       I assert that the explanations offered in the attached report for failing to meet a performance
       target are reasonable and that any recommendations concerning plans and schedules for meeting
       future targets or for revising or eliminating performance targets are reasonable.

       Methodology to Establish Performance Targets

       I assert that the methodology used to establish performance targets presented in the attached
       report is reasonable given past performance and available resources.

       Performance Measures Exist for All Significant Drug Control Activities

       I assert that adequate performance measure~1 significant drug control activities.


                                                           ~~
                                                            Jtk
                                                             Shelly K ara
                                                             Director, ffice of Management, Analysis, and
                                                             Coordination
       Attachment: 

       FY 2012 Performance Summary Report for National Drug Control Activities 





Behavioral Health is Essential To Health • Prevention Works • Treatment is Effective • People Recover
                                                                                                  ATTACHMENT
                                                                                                  Page 2 of 7



    FY 2012 Performance Summary Report for National Drug Control Activities

    Decision Unit 1: Substance Abuse Prevention and Treatment Block Grant (SAPTBG)

          Measure 1: Percentage of clients reporting no drug use in the past month at discharge

       Table 1: Measure 1
         FY 2009     FY 2010     FY 2010     FY 2011     FY 2011    FY 2012     FY 2012     FY 2013
          Actual      Target      Actual      Target      Actual     Target      Actual      Target
         75.7%       70.3%       76.8%       70.3%      TBR         70%         To be       74%
                                                        12/2012                 reported
                                                                                Nov.
                                                                                2013

       (1) 	Measure 1 is the percent of clients in public substance abuse treatment programs who
           report no illegal drug use in the past month at discharge. The measure relates directly to
           a key goal of the Block Grant Program, that is, to assist clients in achieving abstinence
           through effective substance abuse treatment. This measure allows SAMHSA to gauge
           the extent to which this program addresses its key objective. This measure reflects
           program emphasis on reducing demand for illicit drugs by targeting chronic users.
           Project Officers review and monitor data on a regular basis, which serves as a focus of
           discussion with the States, as well as utilizing it in management of the program.

       (2) The target for FY 2010 has been exceeded with 76.8% reporting abstinence from drug
           use at discharge.

       (3) The performance targets for FY 2011 and FY 2012 were both set at approximately 70%.
           Changing economic conditions, especially at the State level, can be expected to
           negatively impact substance abuse treatment programs throughout the country, thus
           stability in program outcomes and outputs is somewhat questionable. SAMHSA will
           continue to work with States to monitor progress in accomplishing treatment goals and
           will provide technical assistance as needed. The FY 2010 target was exceeded.

       (4) The data source for this measure is the Treatment Episode Data Set (TEDS) as collected
           by the Center for Behavioral Health Statistics and Quality. States are responsible for
           reviewing the quality of their data. Each State is responsible for ensuring that each
           record in the data submission contains the required key fields, that all fields in the record
           contain valid codes, and that no duplicate records are submitted. States are also
           responsible for cross-checking data items for consistency across data fields. The internal
           control program consists of a rigorous quality control examination of the data as they are
           received from States. They are examined to detect values that fall out of the expected
           range based on the State's historical trend. If such outlier values are detected the State is
           contacted to validate the value or correct the error. Detailed instructions governing data
           collection, review, and cleaning are available at the following links:


I   Previous figures for the FY 20 I 0 actual were revised during November 2012 using additional data.
                                                                                                                           ATTACHMENT
                                                                                                                           Page 3 of 7



            http://wwwdasis.samhsa.gov/dasis2/manuals/teds adm manual.pdf and 

            http://wwwdasis.samhsa.gov/dasis2/manuals/teds manual.pdf 


    Decision Unit 1: Substance Abuse Prevention and Treatment Block Grant (SAPTBG)

Measure 2: Percent of states showing an increase in state-level estimates of survey respondents
who rate the risk of substance abuse as moderate or greater (age 12-17)

Table 2: Measure 2
       FY 2009       FY 2010        FY 2010           FY 2011            FY 2011            FY 2012            FY 2012            FY 2013
        Actual        Target         Actual            Target             Actual             Target             Actual             Target
        58 .8%         45.1%          17.6%             47.1               Not                 47 .1             Not                 47.1
                                                                        Available                              available
                                                                       until at least                             yet
                                                                         1212012

(I) Measure 2, for Decision Unit I (SAPTBG) reflects the primary goal of the 20% Prevention
    Set-Aside of the SAPTBG grant program and supports the first goal of the National Drug
    Control Strategy: reducing the prevalence of drug use among 12-17 year olds. The measure
    of "perceived risk of harm from substance use" has been used to inform prevention policy
    and programming since the I 960S 2,3 as it remains a significant predictor of substance use
    behaviors4 .5 . For example, "Monitoring the Future, 2008" tracks the trends in perceived risk
    with substanace use since the 1970s6 This depicts a consistent pattern of a leading indicator.
    In addition, a longitudinal study conducted in Iceland found that levels of perceived risk of
    harm measured at age 14 significantly predicted substance use behaviors at ages 15, 17, and
    227 In brief, tracking and monitoring levels of "perceived risk of harm" remains critical for
    informing prevention policy and programming as it can assist with understanding and
    predicting changes in the prevalence of substance use behaviors nationwide.

      This measure represents the percentage of States that reported improved rates for perceived
      risk, aggregated for alcohol, cigarettes, and marijuana. This is not the same as the average
      rate in those States. Rather, it reflects the percentage of States who improved from the
      previous year on the composite perceived risk rate. Data shows that the percentage of States
      who improved on this measure increased from 45.1 % to 56.9% during FY 2007 - FY 2009
      and then dropped to 17.6% during FY 2010. This change is best understood by examining the
      measure definition. This measure is not the same as the average rate in those States but is the
      percentage a/States that improved from the previous year (using the composite perceived


2Cuijpers, Pim. (2003). Three decades of dmg prevention research. Drugs: Education, Prevention and Policy 10:7- 20. 

3 Bjamason, T. & Jonsson, S. (2005). Contrast Effects in Perceived Risk of Substance Use. Substance Use & Misuse, 40 :1733- 1748. 

4 Morgan, M., Hibell, 8., Andersson , B. , Bjamasson, T. , Kokkevi, A., & Narusk, A. (\999). The ESPAD Study: Implications for prevention. 


Drugs: Education and Policy, 6, No. 2. 

S Elekes, Z. , Miller, P., Chomynova, P. & Beck, F. (2009). Changes in perceived risk of different substance usc by ranking order of drug attitudes 

in different ESPAD-countries . Journal of Substance Use, 14:197-2 10. 

6 Johnson, L. D. , O ' Malley, P. M., Bachman, J.G. and Schulenberg, J.E. (2009) Monitoring the Future national results of adultescent drug use: 

Overview of key find ings 2008 (NIH Publication No. 09-7401), Bethesda MD: National Institute on Drug Abuse; p.12. 

7Adalbjamardottir, S., Dofradottir, A. G. , 11101"OIfssoo, T. R. , Gardarsdottir, K. L. (2003). Substance use and attitudes: A Longitudinal Study of 

Young People in Reykjavik from Age 14 to Age 22. Reykjav 'tk: F'elagsv'tsindastofn un H' ask 'ola ·Islands. 

                                                                                                  ATTACHMENT
                                                                                                  Page 4 of 7



        risk rate). It is not unexpected that a ceiling will sometimes be reached in a measure of this
        kind. The FY 2010 decline is also consistent with national trends. For example, according to
        the FY 2010 NSDUH data, the proportion of youths aged 12 to 17 who reported perceiving
        great risk from smoking one or more packs of cigarettes per day increased from 63.1 %
        during FY 2002 to 69.7% during FY 2008 then declined over the next two years. A similar
        phenomena was seen with SAMHSA's NSDUH measurements for the percentage of youths
        aged 12 to 17 at great risk for smoking marijuana once or twice per week also decreased
        from 54.7 percent in FY 2007 to 47.5% in FY 2010.

        Despite the solitary FY 20 10 decline, perceived risk over the past ten years has remained
        stable or increased for most substances. Rather than reduce the target to align with the
        lowest (possibly aberrant) performance report, CSAP has chose to slightly increase the target
        to 47.1 % as a reflection of the positive trend from the three previous years. Because NSDUH
        and state estimates have not been reported yet, SAMHSA will maintain the 47.1 % target for
        FY 2012 and FY 2013.

(2) Unfortunately, 2011 State estimates will not be available until December, 2012, at the
    earliest. Therefore, FY 20 II results cannot be provided at this time. SAMHSA did not
    reduce the target based on FY 2010 results because it appeared that these results mimicked
    national trends. SAMHSA did not want to reduce the target if this was also an aberrant
    result. SAMHSA is confident that the FY 2011 results will return to previous levels. If not,
    future targets will be reconsidered. All opportunities for understanding and overcoming the
    FY 20 I 0 decline are being explored. Right now, there is no obvious programmatic change
    that would dramatically influence performance. Analysis will be strengthened as soon as the
    FY 2011 Actuals are reported.

(3) The FY 2014 Justification will include five GPRA measures reflecting alcohol and illicit
    drug prevalence rates and Synar violation rates. The perceived risk measures have been
    eliminated as GPRA measures, but will continue to be collected as a valid indicator of
    performance.

(4) Data for levels of perceived risk of harm from substance use are obtained annually from the
    National Survey on Drug Use and Health State estimates (NSDUH; SAMHSA, 2012). The
    NSDUH is sponsored by the SAMHSA and serves as the primary source of information on
    the prevalence and incidence of illicit drug, alcohol, and tobacco use among individuals age
    12 or older in the United States 8 For purposes of measuring SAPT Block Grant
    performance, a State has improved iflevels of perceived risk ofharrn increase for at least two
    of the following substances: binge drinking, regular cigarette use, and/or regular marijuana
    use. Annual performance results are derived by using the following formula:

                      Number of SAPTBG grantees improved
                                                                                    Performance Result
                       Total Number of SAPTBG grantees


8   Information on the data collection and validation methods for the NS DUH can be found at
http://www.oas.samhsa.gov/nhsdafmethods.cfin.
                                                                                                                 ATTACHMENT
                                                                                                                 Page 5 of 7



Decision Unit 2: CSAT Programs of Regional and National Significance (PRNS)

      Measure 3: Percent of adults receiving services who had no involvement with the criminal
      justice system (no past month arrests)

      Table 3: Measure 3
        FY 2009        FY 2010        FY 2010       FY 2011        FY 2011        FY 2012        FY 2012       FY 2013
         Actual         Target         Actual        Target         Actual         Target         Actual        Target
           96%           95%            96%            95%           96%            95%           96.4%           96%

                                                                                                                                      9
      (l) Measure 3 is the percent of clients served by the capacity portion of the PRNS portfoli0
          who report no past month arrests. A key component ofthe Program is to ensure that
          clients receive a comprehensive array of services to achieve improvements in quality of
          life. This measure supports a primary objective of assisting clients to increase
          productivity and remain free from criminal involvement. In addition, this measure relates
          directly to and supports the national drug control strategy.

           This measure of percentage of clients with no past month arrests is monitored routinely
           throughout the period of performance for the program.

     (2) CSAT was able to meet the target for FY 2012 at 96.4%.

     (3) The target for FY 2013 is 96%. Targets are set based on trends seen in previous
         performance and anticipated funding levels (i.e. in general, the number served would be
         expected to go up if funding increases and decline if funding decreases). Further, this
         decision unit incorporates several different program activities. Because the mix of
         programs and grantees varies from year to year, adjustments are made in the target
         methodology.

     (4) CSAT is able to ensure the accuracy and completeness of this measure as all data are
         submitted via the Services Accountability Improvement System (SAIS), a web-based
         data entry and reporting system. The system has automated built-in checks to ensure data
         quality.




9 PRNS capacity programs: Targeted Capacity Expansion (TCE)lGenerai, HIV/ AIDS Outreach, Addiction Treatment for Homeless Persons,
Assertive Adolescent and Family Treatment, Family Drug COUltS, Juvenile Drug Courts, Adult Drug Courts, Young Offender Re-entlY Program,
Pregnant and Post-Paltum Women, Recovery Community Setvices - RecovelY, Recovety Community Setvices - Facilitating, Co-Occun'ing
State Incentive Grants, and Child and Adolescent State Incentive Grants.
                                                                                                                       ATTACHMENT
                                                                                                                       Page 6 of 7



 Decision Unit 3: CSAP Programs of Regional and National Significance (PRNS)

 Measure 4: Percent of program participants (age 18 and up) that rate the risk of substance abuse
 as moderate or great 10

 Table 4: Measure 4

    FY 2009         FY 2010           FY 2010            FY 2011           FY 2011          FY 2012           FY 2012           FY 2013
     Actual          Target            Actual             Target            Actual           Target            Actual            Target
     95.3%             93%              95.8%               95%             96.3%             95%               Not
                                                                                                              available
                                                                                                                 yet

      (I) Measure 4 for Decision Unit 3 reflects the goals ofCSAP 's Programs of Regional and
          National Significance (PRNS), as well as the National Drug Strategy. CSAP PRNS
          constitutes a number of discretionary grant programs, such as the Strategic Prevention
          Framework State Incentive Grants (SPF SIG), the Minority AIDS Initiative (MAl), the
          STOP Act grant program, and others. For this decision unit, performance on levels of
          perceived risk from the MAl was selected to represent CSAP PRNS.

           The measure of "perceived risk of harm from substance use" has been used to inform
           prevention policy and programming since the 1960s" as it remains a significant predictor
           of substance use behaviors I2 ,13,14. For example, Monitoring the Future, 2008 tracks the
           trends in perceived risk with substance use since the 1970s. This depicts a consistent
           pattern for a leading indicator l 5 . In addition, a longitudinal study conducted in Iceland
           found that levels of perceived risk of harm measured at age 14 significantly predicted
           substance use behaviors at ages 15, 17, and 22 16 In brief, tracking and monitoring levels
           of "perceived risk of harm" remains critical for informing prevention policy and
           programming as it can assist with understanding and predicting changes in the prevalence
           of substance use behaviors nationwide.

      (2) The MAl grant program continues to successfully impact participants resulting in
          observed increases in levels of perceived risk of harm from substance use among adults.
          As a result, the program has been able to meet or exceed its annual performance targets .
          Based on performance results from the MAl grantees, data show that perceptions of risk
          are significantly influenced by age, race, and individual-level experiences with substance


10 Data fro m Minority AIDS Initiative (MAl): Substance Abuse Prevention, HJV Prevention and Hepatitis Prevention for Minorities and
Minori ties Re-cntering Communities Post-Incarceration [HIV]
II Cuijpers , Pim. (2003). lluee decades of drug prevention research. Drugs: Education, Prevention and Policy 10:7-20.
12 Bjamason, T. & Jonsson . S. (2005). Contrast Effects in Perceived Risk of Subslance Use. Subslance Use & Misus e. 40 : 1733-1748.
13 Morgan, M., Hibcll, B., Andersson, 8., Bjamasson. T. , Kokkevi, A. , & Nalusk, A. (1999). The ESPAD Study: Implications for prevention.
Drugs: Education and Pol icy, 6, NO.2.
14 Elekes, Z., Miller, P., Chomynova, P. & Beck, F. (2009). Changes in perceived risk of different substance use by ranking order of drug
attitudes in different ESPAO-countlies. Journal ofSubslance Use, 14: 197-210.
15 Johnson, L.D. , O ' Malley, P.M., Bachman, J.G. and Schulenberg, J.E. (2009) Mon itoring the Future national results ofadultescen t drug use:
Overview of key findings 2008 (N IH Publication No. 09-740 I, Bethesda MD: National Institute on Dtug Abuse; p. l l
16 Ada lbjamardonir, S., Dofradonir, A G. , Thorolfsson, T. R., Gardarsdonir, K. L (2003). Substance use and attitudes: A Longitudinal Study of
Young People in Reykjav ik from Age 14 to Age 22 . Reykjav'lk : F'elagsv'lsindastofnun rrask'ola ' Is lands.
                                                                                                             ATTACHMENT
                                                                                                             Page 7 of 7



          use- findings that are directly aligned with previous research 17. Additional findings
          suggest that service types (e.g., individual-level counseling, group-level workshops) may
          also affect perceived levels of risk of harm between baseline and exit. For example, the
          "Brief Alcohol Screening and Intervention for College Students (BASICS)" program
          emerged as the most successful intervention for minorities across substance use and HIV
          prevention outcomes and resulted in a 37% increase in participants who perceive great
          risk, especially regarding unprotected sex. Additionally, examination of follow-up data
          for the grant program revealed continued improvements after the cessation of services.
          For example, the percentage of participants perceiving moderate or great risk of harm
          from binge drinking increased from 81.5% at baseline to 87.7% at exit and 89.8% at
          follow-up. Similarly, the percentage perceiving the same level of risk of harm from
          marijuana use increased from 67.6% at baseline to 77.5% at exit and 80.1 % at follow-up.
          In both cases, the improvement between program exit and follow-up was statistically
          significant.

     (3) At the request of the Office of Management and Budget COMB), and the Office of the
         Assistant Secretary for Financial Resources (HHS/ASFR), SAMHSA underwent a GPRA
         reduction in an attempt to decrease the total number of GPRA measures. As part of this
         exercise, the measure for perceived levels of risk of harm among adults was replaced
         with a more global measure that does not separate out age groups (i.e. youth vs. adults)
         and is limited to those reporting only great perceived risk.

     (4) Data for the MAl are collected by the grantees through OMB approved survey
         instruments. Measures used in these instruments include items from other validated
         instruments such as Monitoring the Future and NSDUH. Grantees typically collect data
         and enter these into an online data entry system. Data received have been processed,
         cleaned, analyzed and reported by the Data Analysis Coordination and Consolidation
         Center (DACCC). The DACCC reviewed the data for completeness and accuracy using a
         set of uniform cleaning rules. Information on any data problems identified is transmitted
         to the COR and task lead, who work with the program Government Project Officers and
         grantees to identify a resolution. Grantees also receive instruction on the data collection
         protocols at grantee meetings and through survey administration guides. This function
         will be continued under the Data Collection Analysis and Reporting contract (DCAR).

          Performance results reflect the proportion of matched baseline-exit surveys that show an
          increase in levels of perceived risk of harm for those engaging in at least one of the
          following behaviors: binge drinking, regular cigarette use and regular marijuana use. The
          formula is shown below:

                   Number of MAl participants improved
          =--c--:-cc-'-==-,:-,-=::....c..:::...:==c:.::..:=':"'::':=--:-c:--c- = Performance Result.
          Total Number of MAl participants with matched data




17 Elekes, Z., Miller, P., Chomynova, P. & Beck, F. (2009). Perceived risks of alcohol and illicit drugs: relation to prevalence of
use on indivi dual and country level. Journal ofSubstance Use, 14: 250-264.
